U.S. Department of the Interior
Office of Inspector General




          SURVEY REPORT


      SELECTED ACTIVITIES OF THE
    UPPER MISSISSIPPI RIVER SYSTEM
ENVIRONMENTAL   MANAGEMENT PROGRAM,
       U.S. GEOLOGICAL SURVEY

             REPORT NO. 98-1-580
                 JULY 1998
                                                                          C-IN-GSV-001-98-R


              United States Department                        of the Interior
                             OFFICE OF INSPECTOR GENERAL
                                      Washington, DC. 20240




                                 SURVEY REPORT

Memorandum

To:       Director, U.S. Geological Survey

From:     Robert J. Williams
          Assistant Inspector General for

Subject: Survey Report on Selected Activities of the Upper Mississippi River System
         Environmental Management Program, U.S. Geological Survey (No. 98-I-580)

                                  INTRODUCTION

This report presents the results of our survey of selected activities conducted by the
Environmental Management Technical Center, U.S. Geological Survey, under an agreement
between the Department of the Interior and the Department of the Army to implement the
Upper Mississippi River System Environmental Management Program. The survey was
requested by the Corps of Engineers, Mississippi Valley Division, Department of the Army.
The objective of the survey was to determine whether (1) cooperative agreements with the
various states and universities involved in the Environmental Management Program were
appropriate and adequate; (2) funds provided by the Corps were used for their intended
purpose, within the time frame specified, and in the amounts authorized; (3) property was
properly accounted for in accordance with applicable regulations; (4) reported Program costs,
including overhead, were accurately supported by the accounting system; and (5) contracts
were awarded and administered in accordance with applicable regulations.

BACKGROUND

The Upper Mississippi River Management Act of 1986 (Section 1103 of the Water
Resources Development Act of 1986) was enacted to ensure the coordinated development
and enhancement of the Upper Mississippi River System. The Act authorized the Secretary
of the Army, in consultation with the Secretary of the Interior and the states of Illinois, Iowa,
Minnesota, Missouri, and Wisconsin, to undertake three programs to (1) plan, construct, and
evaluate measures for fish and wildlife habitat rehabilitation and enhancement; (2)
implement a long-term resource monitoring program; and (3) implement a computerized
inventory and analysis system. Each of these three programs was to be carried out for
10 years, which was subsequently extended to 15 years by Section 107 of the Water
Resources Development Act of 1992. Responsibility for the second and third programs was
assigned to the Department of the Interior under a memorandum of agreement with the
Department of the Army executed in 1987. However, the memorandum of agreement stated
that the Department of the Army “will retain ultimate responsibility and report to OMB
[Office of Management and Budget] and Congress on program implementation and for
funding needs for the programs (as well as for all UMRS-EMP ppper Mississippi River
System - Environmental Management Program] activities) in annual budget presentations.”

The Department ofthe Interior assigned responsibility for the long-term resource monitoring
and the computerized inventory programs to the U.S. Fish and Wildlife Service. In 1988,
the Service entered into a memorandum of agreement with the five states to delineate roles
and responsibilities for accomplishing the programs. In addition, the Service entered into
individual cooperative agreements between 1988 and 1990, with each of the five states to
assign specific work tasks and to establish a mechanism for providing funds to the states.
Further, the Service entered into cooperative agreements with six colleges/universities to
provide staff and technical expertise to the Center to accomplish the objectives of the
long-term resource monitoring program and the computerized inventory and analysis system.

As a result of various Departmental reorganizations, overall program responsibility was
transferred from the Service to the National Biological Survey, which was established by
Secretarial Order No. 3173, dated September 29, 1993. Secretarial Order No. 3 185, dated
January 5, 1995, changed the name of the National Biological Survey to the National
Biological Service. By Secretarial Order No. 3202, dated September 30, 1996, the National
Biological Service was transferred to the U.S. Geological Survey and was named the
Biological Resources Division, effective October 1,1996. Notwithstanding the Departmental
reorganizations, program direction and oversight have remained the responsibility, since the
Program’s inception, of the Environmental Management Technical Center, located in
Onalaska, Wisconsin, which is now part of the Biological Resources Division of the
U.S. Geological Survey.

For fiscal years 1995 through 1997, the Corps made available about $17.5 million for
expenditure by the Center for the long-term resource monitoring and the computerized
inventory programs (see Appendix 1). The Center receives payments from the Corps based
upon periodic billings for expenditures. As of September 30,1997, the Center had obligated
about $17.2 million of the available funding, leaving an unobligated balance of about
$300,000. Of the $17.2 million obligated by the Center, about $8.2 million was for Center
salaries, overhead, and other operating costs, and about $9 million was obligated under
cooperative agreements with the five participating states and six colleges/universities.

SCOPE OF SURVEY

The survey was performed during November 1997 through February 1998 at the
Environmental Management Technical Center and the Bureau of Reclamation’s Denver
Administrative Service Center, the latter of which performed the payment function for the


                                             2
Program during fiscal years 1996 and 1997. To accomplish the stated audit objective, we
interviewed Center and other U.S. Geological Survey personnel; examined cooperative
agreements; reviewed the Center’s procedures, controls, and accounting records related to
the programs; and reviewed available single audit reports for the states and
colleges/universities that entered into cooperative agreements with the Center. Our survey
covered costs incurred and program activities that occurred for fiscal years 1995 through
1997. Our survey was performed without the benefit of a technical evaluation. Accordingly,
our conclusions are qualified to the extent that a technical evaluation may affect the
allocability and allowability of reported costs.

Our survey was conducted in accordance with the “Government Auditing Standards,” issued
by the Comptroller General of the United States. Accordingly, we included such tests of
records and other auditing procedures that were considered necessary under the
circumstances. As part of our review, we assessed the Center’s system of administrative and
accounting controls applicable to the selected Program activities we reviewed and found
weaknesses related to (1) defining work tasks to be performed under cooperative agreements
with colleges/universities, (2) monitoring state and college/university financial activities
under cooperative agreements, and (3) maintaining an accurate inventory of equipment
owned by the Federal Government and conducting physical inventories. These weaknesses
are addressed in the Results of Survey section of this report. Our recommendations, if
implemented, should improve the internal controls in these areas.

We also reviewed the Department’s Accountability Report for fiscal year 1996, which
includes information required by the Federal Managers’ Financial Integrity Act of 1982, and
the U.S. Geological Survey’s assurance statement for fiscal year 1997 to determine whether
any reported weaknesses were within the objective and scope of our review. While the
Secretary’s assurance statement identified two reportable conditions from audited financial
statements related to Federal-state cooperative projects and property accountability and
reporting, we found that these conditions did not apply to the Center’s operations.

PRIOR AUDIT COVERAGE

Neither the Office of Inspector General nor the General Accounting Office has issued an
audit report during the past 5 years on the Center’s operations. However, we identified 11
reports on audits of state and college/university cooperators that were conducted under the
Single Audit Act of 1984 (Appendix 2). As stated in the Results of Survey section of this
report, we found that one of these reports identified deficiencies in the areas of cash
advances, monitoring subgrantee costs, financial reporting, property record adequacy, and
the timeliness of agreement expenditures. All of these deficiencies related directly to
cooperative agreements entered into with the Center. These deficiencies were considered in
executing our audit survey.
                            RESULTS OF SURVEY

We found, for the funds expended by the Environmental Management Technical Center for
its activities conducted under the Environmental Management Program, that (1) funds
provided by the Corps were used for their intended purpose, within the time frame specified,
and in the amounts authorized; (2) reported Program expenditures, including overhead, were
accurately supported by the accounting system; and (3) acquisitions were awarded and
administered in accordance with applicable regulations. However, we found that cooperative
agreements with the various states and universities involved in the Program were not
adequate and that property was not properly accounted for in accordance with applicable
regulations. This occurred because the Center had not adequately defined specific tasks to
be performed in amendments to cooperative agreements with colleges/universities,
adequately monitored Program funds expended by the cooperators, properly accounted for
equipment acquired with Program funds, or performed annual physical inventories of
Government equipment in the possession of state cooperators since 1994. As a result, for
the funds expended by the cooperators, the specific tasks to be accomplished with Program
funds of over $1.1 million were not defined, and the costs incurred by cooperators were not
adequately monitored. In addition, the Center did not have a current and accurate inventory
of Federally owned equipment. Further, we identified about $2 million that the Center
obligated for work to be performed in fiscal years subsequent to the fiscal years in which the
funds were made available by the Corps.

Cooperative Agreement Amendments

The Environmental Management Technical Center, when amending cooperative agreements
with colleges/universities, did not always specify the tasks, including deliverables, to be
performed with Program funds for the long-term resource monitoring program and the
computerized inventory and analysis system. This occurred primarily when amendments
were executed near fiscal year-end that included additional work on the Environmental
Management Program and other Center projects. In addition to the Corps Program funding,
the Center received funding for other Center projects from sources such as other Corps of
Engineer districts, the Environmental Protection Agency, the National Biological Service,
the U.S. Fish and Wildlife Service, and the U.S. Geological Survey. However, the Center
performed work on some of the other projects through the cooperative agreements it
executed for Program work. Center personnel told us that tasks were not defined at the time
the amendments were executed because Center management wanted some flexibility when
the tasks to be performed were identified and because they needed to obligate available funds
(from all sources) by fiscal year-end. As a result, Program funds of about $1.1 million were
obligated under 15 cooperative agreement amendments with colleges/universities under the
Program during fiscal years 1995 through 1997 without the Program work that was to be
performed being defined. For example:

        - A September 1996 cooperative agreement amendment with a college provided fiscal
year 1996 funding totaling about $380,000 in support of nine individual projects, including
one Program-specific project. The amendment provided funds for the college to “continue
to provide student, faculty, and staff support to assist the NBS’ [National Biological

                                              4
Service’s] Environmental Management Technical Center in its efforts relative to the Upper
Mississippi River Systems Environmental Management Program.”

         - A September 1996 cooperative agreement amendment with a university provided
fiscal year 1996 funding totaling about $332,000 in support of 10 individual projects,
including 1 Program-specific project. The amendment provided funds for the university to
“continue to provide student, faculty, and research associate support to assist the hBS’
[National Biological Service’s] Environmental Management Technical Center in its efforts
relative to the Upper Mississippi River Systems Environmental Management Program.”

Because the Center did not identify the amount of funds provided for specific projects or the
specific Program work to be performed in the amendments to the cooperative agreements,
it did not have full assurance that cooperators would use the funds for intended Program
purposes.

Monitoring Program Costs

The Center’s process for monitoring costs incurred by cooperators needs to be improv-ed.
Specifically, the Center did not obtain or review single audit reports of the cooperators’
financial activities to aid in determining whether the cooperators complied with the
Program’s financial requirements. The Single Audit Act of 1984, as amended, requires
recipients who receive Federal assistance of more than $300,000 in any given year to
complete an organizationwide audit that includes a separate review of Federal funds.
However, Center officials stated that they did not foresee a need to review single audit
reports because they were aware of how the states and colleges/universities expended
Program funds through the annual budget process and through reviews of standard financial
reports submitted by the cooperators. In addition, they stated that their knowledge of the
activities performed by state personnel based at the Program’s field stations and the
college/university employees physically located at the Center provided assurance that
Program funds were used properly. However, we found that the reports submitted by the
cooperators to obtain Program funds and to report on Program expenditures and fund status
provided only cumulative expenditures without any details on how the funds were used. In
addition, we found one single audit report that contained several Program financial
deficiencies, as discussed in the following paragraphs, of which the Center was not aware.

For fiscal years 1995 and 1996, we reviewed 11 single audit reports that covered the
activities of the state and college/university cooperators, For 10 of these reports, matters of
noncompliance with internal controls or Federal requirements or questioned costs were not
identified to any Department of the Interior programs. However, the single audit report for
fiscal year 1996 for one cooperator identified deficiencies related to the Environmental
Management Program as follows:

        - Cash advances in excess of immediate needs were requested by the cooperator in
April 1995 and advanced by the Center in June 1995; however, the funds were not li11ly
disbursed by the cooperator until April 1996.



                                               5
        - The cooperator did not monitor all of its Federal programs and therefore had no
assurance that all Federal program requirements were met.

        - Required financial status reports submitted by the cooperator to the Center for fiscal
year 1996 were incorrect. Specifically, certain indirect costs were excluded from the reports,
costs incurred under ajointly funded agreement involving the cooperator were excluded from
the reports, and expenditures were reported on the cash rather than the accrual basis.

        - The cooperator’s property and equipment records were not adequate. However,
additional audit work performed enabled the auditors to satisfy themselves that the reporting
of property and equipment was acceptable.

        - The cooperator was reimbursed by the Center for costs of $117,730 that were
incurred after an amendment to the cooperative agreement expired. (We found that
subsequent to the single audit, the cooperative agreement amendment was extended by the
Center to bring the disputed costs within the period covered by the amendment.)

Center officials told us that they did not consider these deficiencies to be significant.
However, they stated that information contained in single audit reports could be beneficial
to their overall monitoring of cooperator activities.

Equipment

We found that the Center had not properly accounted for equipment purchased with Federal
funds in accordance with applicable regulations. Specifically, the Center had not updated
its inventory of equipment to delete state-owned equipment or conducted annual inventories
of equipment purchased with Federal funds that was located at the field stations operated by
the five cooperating states. As of January 2 1, 1998, the value of all equipment’ as reported
in the Center’s property system was about $4 million, which consisted of capitalized
equipment of $2.3 million and noncapitalized equipment of $1.7 million. The original
cooperative agreements with the five states stated that all equipment acquired with Program
funds would be the property of the Federal Government. However, the Code of Federal
Regulations (43 CFR 12.72), as amended on March 11, 1988, states that title to equipment
purchased by states with Federal funds vests with the states and that the equipment will be
used, managed, and disposed of in accordance with state laws and procedures. The Center
recently recognized the change in the regulations and entered into new cooperative
agreements with Illinois, Iowa, and Wisconsin effective October 1,1997, to incorporate the
requirements of the Code (43 CFR 12.72). In addition, at the time of our review, the Center
was executing new cooperative agreements with Minnesota and Missouri.

The Interior Property Management Regulations (114-60.30 1) require that complete physical
inventories be conducted at least annually of all capitalized and noncapitalized
nonexpendable equipment. However, the Center had not conducted a physical inventory of


‘The Center’s equipment data base includes all equipment assigned to the Center, notjustequipmentpurchased
with Program funds. The data base does not identify what fimds were used to acquire the equipment.

                                                      6
equipment at the field stations since 1994. The Center’s equipment data base includes
equipment that was acquired by the Federal Government and the states with Program funds.
The Center’s data base did not identify which equipment was owned by the states and
therefore should be deleted from the data base. To establish ownership of the equipment, the
Center stated that it would have to conduct a physical inventory at all of the Program’s
locations and then determine whether the equipment was acquired by the Federal
Government or the states. Center management stated that while they intended to conduct
physical inventories and to delete state-owned equipment from the equipment data base,
other priorities, such as converting to the U.S. Geological Survey property system, had taken
precedence. As a result, the Center’s inventory of equipment did not accurately reflect the
value or the quantity of property that is owned by the Federal Government.

Timely Use of Funds

Annual funding for the long-term resource monitoring program and the computerized
inventory and analysis system made available by the Corps was not always used by the
Center for services to be performed in the same fiscal year in which the funds were made
available. Corps Program staff told us that it was the Corps intention for the services to be
provided in the year that the funds were made available. However, the Military
Interdepartmental Purchase Request documents that made the funding available to the Center
stated that the services to be performed pursuant to the order were properly chargeable until
December 31 of the year to which the request applied. Center officials said that they
interpreted the provision to mean that the Center had until December 3 1, or 3 months after
the September 30 closure of its fiscal year, to obligate the funds.

We believe that the interpretation made by Center officials is reasonable because the source
of the funds made available by the Corps was a no-year appropriation. However, based on
the comments of Corps staff regarding the timeliness of the Center’s use of the funds, we
determined that the Center obligated funds of $1,957,235 for services to be performed after
the fiscal year in which the funds were made available as follows:


                                                         Obligations
                                                       for Subsequent
                                 Funding                 Fiscal Year
                                Fiscal Year               Services *
                                   1995                       $213,576
                                   1996                        645,560
                                   1997                      1,098,099
                                       Total                $1,957,235



       *These obligations for subsequent fiscal year services all occurred from October 1 through
       December 3 1 of the fknding fiscal year.




                                                   7
Because we believe that the Center was in compliance with the requirements of the purchase
requests, we did not make any recommendations regarding the timely use of funds. In
addition, Corps officials told us that the situation had been corrected in its fiscal year 1998
funding document, which stated that funds were properly chargeable until September 30.

Recommendations

We recommend that the Director, U.S. Geological              Survey, require the Director,
Environmental Management Technical Center, to:

         1. Ensure that amendments to cooperative agreements are sufficiently detailed to
identify Program tasks to be performed, products to be delivered, and the funding for each
specific task.

         2. Obtain copies of single audit reports from the cooperators on an as-issued basis
for all of the Program’s cooperators. The Center should review these reports and follow up
with the cooperators to resolve reported deficiencies that have an impact on the Program.

        3. Conduct a physical inventory of the equipment located at all of the Center’s field
locations to determine which equipment was acquired by and is owned by the Federal
Government and which equipment is owned by the states and delete from the Center’s
equipment data base those items that are owned by the states. Also, assurance should be
provided that physical inventories of all Federal Government capitalized and noncapitalized
(nonexpendable) equipment are performed at least annually.

U.S. Geological Survey Response and Office of Inspector General Reply

In the June 10, 1998, response (Appendix 3) to the draft report from the Associate Director,
U.S. Geological Survey, the Geological Survey agreed with the three recommendations.
Based on the response, we consider Recommendations 1 and 2 resolved and implemented
and Recommendation 3 resolved but not implemented. Accordingly, Recommendation 3
will be referred to the Assistant Secretary for Policy, Management and Budget for tracking
of implementation.

Additional Comments on Survey Report

Regarding equipment inventories, the Geological Survey stated that the Center had
“conducted an inventory of controlled and sensitive personal property in November 1996 and
July 1997. The inventory was completed on-site and via telecommunications. Necessary
additions and deletions, and corrections were made.”

While we are aware of the physical inventories of controlled/sensitive property at the
Center, the inventories via telecommunications of the field stations were not in compliance
with requirements of the Interior Property Management Regulations (114-60.301) that state
that “a complete physical inventory” of capitalized and noncapitalized personal property
should be conducted on an annual basis. In that regard the Geological Survey stated that the

                                              8
“Center is in the process of conducting another physical inventory of equipment located at
all Center field locations to verify which equipment was acquired by and is owned by the
Federal Government.”

Since the report’s recommendations are considered resolved, no further response to the
Office of Inspector General is required (see Appendix 4).

The legislation, as amended, creating the Office of Inspector General requires semiannual
reporting to the Congress on all audit reports issued, actions taken to implement audit
recommendations, and identification ofeach significant recommendation on which corrective
action has not been taken.




                                            9
                                                                                              APPENDIX 1



        ENVIRONMENTAL MANAGEMENT TECHNICAL CENTER’S
         LONG-TERM RESOURCE MONITORING PROGRAM AND
         COMPUTERIZED INVENTORY AND ANALYSIS SYSTEM -
           SUMMARY OF FUNDS PROVIDED AND OBLIGATED
                     AT SEPTEMBER 30,1997


                                                              Fiscal Year

                                                1995              1996              1997              Total

Funds Provided by the
 Department of the Army                     $5,705,500       $5975,343         $5,825,000         $17,505,843


Funds Obligated by the
 Department of the Interior:
    Direct Expenditures                     $2,249,105       $2,279,532        $2,217,839           $6,746,476

    Overhead                                   563,012           496,293           425,237           1,484,542

          Subtotal                          $2,812,117       $2,775,825        $2,643,076          $8,231,018

    Cooperative Agreements                   2,713,648         3,087,266        3,181,924            8,982,838

          Total Obligations                 $5,525,765       $5,863,091        $5,825,000         $17,213,856

Unobligated Balance*                          $179,735         $112,252                  $0           $291,987




* The unobligated balance is the difference between the amount of funds provided by the Department of the Army and
the total amount of fimds obligated by the Department of the Interior.




                                                        10
                                                  APPENDIX 2




                SINGLE AUDIT REPORTS OF
    ENVIRONMENTAL MANAGEMENT TECHNICAL CENTER -
      STATE AND COLLEGE/UNIVERSITY COOPERATORS
           THAT WERE LOCATED AND REVIEWED


                                                Audit Periods
                         Audited Entity         (Fiscal Years)

Illinois Department of Natural Resources         1996

State of Iowa                                    1996

State of Minnesota                               1995 and 1996

State of Missouri                                1996

State of Wisconsin                               1995 and1996

State of Tennessee                               1995 and1996

University of Illinois                           1996

University of Wisconsin System                   1995




                                           11
                                                                                        APPENDIX3
                                                                                        Page 1 of 3
               United States Department of the Interior
                           U.S.
                              GEOLOGICAL SURVEY
                                      Office of the Director
                                      Reston. Virginia 20192
ln Reply Refer To:
Mail Stop 300
#lo760


                                        MEMORANDUM

                                                                               JUN 1.0 1998

To:        Acting Inspector General

From:


Subject:   Draft Survey Report on Selected Activities of the Upper Mississippi River System
           Environmental Management Program, U.S. Geological Survey (Assignment
           No. C-IN-GSV-001-98-R)

This is in response to your April 24, 1998, memorandum regarding the three recommendations
included in the above-referenced report.

1. OIG Finding: The Environmental Management Technical Center (EMTC), when amending
cooperative agreements with colleges/universities, did not always specify the tasks, including
deliverables, to be performed with Program funds for the long-term resource monitoring program
(LTRMP) and the computerized inventory and analysis system. This occurred primarily when
amendments were executed near fiscal year-end that included additional work on the
Environmental Management Program and other center projects.

OIG Recommendation: Ensure that amendments to cooperative agreements are sufficiently
detailed to identify Program tasks to be performed, products to be delivered, and the funding for
each specific task.

Response: Partially Concur. The EMTC has had a cooperative relationship with colleges and
universities dating back to the beginning of the LTRMP. These agreements were established to
support LTRMP activities. The initial agreements detailed the roles and responsibilities of the
EMTC and the cooperating college or university. Subsequent amendments to these agreements
did not always detail specific tasks but required continued support of the LTRMP (as identified
in the original Cooperative Agreement). Because we work with our cooperators on a
daily/weekly basis, we easily monitored performance and were very comfortable that work was
being accomplished in accordance with our Annual Work Plans. However, we recognize that




                                             12
                                                                                        APPENDIX 3
                                                                                        Page 2 of 3


                                                                                                    2

including the specifics of cooperative agreement work only in the Annual Work Plan has caused
some confusion.

Corrective Action Planned: In the future, all amendments to cooperative agreements with
colleges and universities will contain more detail, including deliverables, to be performed with
Program funds in support of the LTRMP.

2. OIG Finding: The Center’s process for monitoring costs incurred by cooperators needs to be
improved.

OIG Recommendation: Obtain copies of single audit reports from the cooperators on an as-
issued basis for all of the Program’s cooperators. The Center should review these reports and
follow up with the cooperators to resolve reported deficiencies that have an impact on the
Program.

Response: Concur.

Corrective Action Planned: The Center will obtain copies of single-audit reports from the
cooperators on an as-issued basis and will review them and follow up with the cooperators to
resolve reported deficiencies that have an impact on the Program.

3. OIG Finding: We found that the Center had not properly accounted for equipment
purchased with Federal funds in accordance with applicable regulations. Specifically, the Center
had not updated its inventory of equipment to delete State-owned equipment or conducted annual
inventories of equipment purchased with Federal funds and was located at the field stations
operated by the five cooperating States.

OIG Recommendation: Conduct a physical inventory of the equipment located at all of the
Center’s field locations to determine which equipment was acquired by and is owned by the
Federal Government and which equipment is owned by the States and delete from the Center’s
equipment database those items that are owned by the Sates. Also, assurance should be provided
that physical inventories of all Federal Government capitalized and noncapitalized
(nonexpendable) equipment are performed at least annually.

Response: Partially Concur. The Center believes that they were conforming to the intent of
applicable regulations. The Center conducted an inventory of controlled and sensitive personal
property in November 1996 and July 1997. The inventory was completed on-site and via
telecommunications. Necessary additions, deletions, and corrections were identified.

OMB Circular A- 102, Administrative Requirements for Grants and Cooperative Agreements to
State and Local Governments, was revised after our cooperative agreements were in place. This
resulted in minor changes in the administration of the agreements regarding ownership and
accountability of equipment and supplies purchased by Sate field stations. In addition, there was



                                           13
                                                                                     APPENDIX3
                                                                                     Page 3 of 3
                                                                                              3

confusion in property ownership resulting from Corps of Engineers ownership claims which
predated the revised circular. This issue has been clarified recently.

Corrective Action Taken: All cooperative agreements have been revised to comply with
Circular A-102.

Corrective Action Planned: The Center is in the process of conducting another physical
inventory of equipment located at all Center field locations to verify which equipment was
acquired by and is owned by the Federal Government and which equipment is State-owned.
During this review, we will remove US. Government identification stickers from effected
equipment, review records of equipment purchased by the field station, and inventory remaining
Federal equipment. We will also ensure that inventories of all Federal Government capitalized
and non-capitalized (non-expendable) equipment are performed at least annually.

Targeted Completion Date: September 30, 1998.

Please contact Norman Hildrum or Linda Ott on 608-783-7550 or Jo Margaret Hale on
703-648-4089, if you have any questions regarding this response.




                                        14
                                                                  APPENDIX 4




        STATUS OF AUDIT REPORT RECOMMENDATIONS



    Finding/
Recommendation
   Reference            Status                  Action Required

    land2        Implemented.    No further action is required.

       3         Resolved; not   No further response to the Office of Inspector
                 implemented.    General is required. The recommendation
                                 will be referred to the Assistant Secretary for
                                 Policy, Management and Budget for tracking
                                 of implementation.




                                 15
               ILLEGAL OR WASTEFUL ACTIVITIES
                   SHOULD BE REPORTED TO
             THE OFFICE OF INSPECTOR GENERAL BY:

Sending written documents to:                                   Calling:



                     Within the Continental United States

U.S. Department of the Interior                       Our 24-hour
Office of Inspector General                           Telephone HOTLINE
1849 C Street, N.W.                                   l-800-424-508 1 or
Mail Stop 5341                                        (202) 208-5300
Washington, D .C . 20240


                                                      TDD for hearing impaired
                                                      (202) 2082420 or
                                                      l-800-354-0996



                     Outside the Continental United States

                                     Caribbean RePion

U.S. Department of the Interior                         (703) 235-9221
Office of Inspector General
Eastern Division - Investigations
4040 Fairfax Drive
Suite 303
Arlington, Virginia 22201

                                    North Pacific Retion

 U.S. Department of the Interior                        (67 1) 647-605 1
 Office of Inspector General
 North Pacific Region
 415 Chalan San Antonio
 Baltej Pavilion, Suite 306
 Tamtmi.ng , Guam 969 11
Toll Free Numbers:
 l-800-424-5081
 TDD l-800-354-0996

FTVCommercial Numbers:
 (202) 208-5300          E
 TDD (202) 208-2420      i



1849 C Streek N.W.
